Neutral
As of: August 6, 2020 11:36 AM Z

Claiborne v. McCarthy
United States Court of Appeals for the Ninth Circuit
March 12, 2020, Resubmitted, Seattle, Washington; March 12, 2020, Filed
No. 18-36023
Reporter
2020 U.S. App. LEXIS 7846 *; __ Fed. Appx. __; 2020 WL 1207802

For RYAN D. MCCARTHY, Acting Secretary of the
Army, Defendant - Appellee: Sean Edward Martin,
Assistant U.S. Attorney, Kelly A. Zusman, Assistant U.S.
Attorney, Usao, Portland, OR.

DAMON J. CLAIBORNE, Plaintiff-Appellant, v. RYAN D.
MCCARTHY, Acting Secretary of the Army, DefendantAppellee.

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.

Prior History: [*1] Appeal from the United States
District Court for the District of Oregon. D.C. No. 3:15cv-01192-BR. Anna J. Brown, District Judge, Presiding.
Argued and Submission Withdrawn December 11, 2019.

Claiborne v. Sec'y of the Army, 2018 U.S. Dist. LEXIS
195014 (D. Or., Nov. 15, 2018)

Disposition: AFFIRMED.

Judges: Before: GRABER and GOULD, Circuit Judges,
and EZRA,** District Judge.

Opinion
MEMORANDUM*
Plaintiff Damon J. Claiborne appeals the district court's
grant of summary judgment in favor of the Secretary of
the Army. The district court upheld the Army's
administrative determination to involuntarily separate
Plaintiff just months before he qualified for retirement
benefits. On de novo review, Garris v. FBI, 937 F.3d
1284, 1291 (9th Cir. 2019), we affirm.
1. The decision by the Army to discharge Plaintiff was
not illegally retroactive. Plaintiff could have been
discharged under preexisting regulations promulgated
by the Army, such as Army Regulation 635-200,
because those regulations allow the Army to change its
mind about separation decisions. Furthermore, a
dismissal [*2] from the Army is not a criminal penalty,
so double jeopardy principles are not at issue.

Core Terms
district court, regulations, discharged, new rule,
retroactive, proclivity, waived

Counsel: For Damon J. Claiborne, Plaintiff - Appellant:
John N. Maher, Attorney, Maher Legal Services PC, St.
Charles, IL.

** The

Honorable David A. Ezra, United States District Judge
for the District of Hawaii, sitting by designation.

* This

disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

John Maher

1a

Page 2 of 2
2020 U.S. App. LEXIS 7846, *2
2. Plaintiff waived the argument that the new rule was
facially void, as distinct from whether the new rule was
being applied retroactively in an improper way. Plaintiff
conceded the issue below, and the district court relied
on that concession. The district court ruled that Plaintiff
abandoned his claim that Army Directive 2013-21 and
ALARACT should be invalidated under the APA. The
court did not err in concluding that this argument was
waived.
3. The Army discharged Plaintiff for his conviction of
child molestation, not for a generalized "proclivity" for
sexual misbehavior. The Army Board for Correction of
Military Records used the word "proclivity" once in its
decision, but a single appearance of that word did not
change the clear basis of the Army's decision.
Furthermore, the Army's real ground for discharging
Plaintiff (his felony conviction) was supported by
substantial evidence.
AFFIRMED.

End of Document

John Maher

2a

Positive
As of: August 6, 2020 11:36 AM Z

Claiborne v. Sec'y of the Army
United States District Court for the District of Oregon
November 15, 2018, Decided; November 15, 2018, Filed
3:15-cv-01192-BR
Reporter
2018 U.S. Dist. LEXIS 195014 *; 2018 WL 6004661

DAMON J. CLAIBORNE, Plaintiff, v. SECRETARY OF
THE ARMY, Defendant.

Subsequent History: Motion granted by Claiborne v.
McCarthy, 2019 U.S. App. LEXIS 36024 (9th Cir. Or.,
Dec. 4, 2019)

Judges: ANNA J. BROWN, United States Senior
District Judge.

Opinion by: ANNA J. BROWN

Opinion

Affirmed by Claiborne v. McCarthy, 2020 U.S. App.
LEXIS 7846 (9th Cir. Or., Mar. 12, 2020)

OPINION AND ORDER
Prior History: Claiborne v. Sec'y of the Army, 2018
U.S. Dist. LEXIS 101018 (D. Or., June 14, 2018)

BROWN, Senior Judge.

Core Terms
military, retirement, mandamus, recommended, Soldier,
capricious, sex, enlisted, personnel, plenary,
misconduct, prescribed, nonmoving, quotation,
deferential, deportment, memorandum, retention, dress,
weigh

This matter comes before the Court on Plaintiff's Motion
(#58) for Judgment on the Administrative Record and
Defendant's Cross-Motion (#61) for Summary
Judgment. The Court concludes the record is sufficiently
developed such that oral argument would not be helpful
to resolve these Motions. For the reasons that follow,
the Court DENIES Plaintiff's Motion and GRANTS
Defendant's Motion.

BACKGROUND

Counsel: [*1] For Plaintiff: DANA MITCHELL, LISA D.
WRIGHT, Salem, OR; JOHN N. MAHER, KEVIN J.
MIKOLASHEK, Maher Legal Services PC, St. Charles,
Illinois.
For Defendant: BILLY J. WILLIAMS, United States
Attorney, JAMES E. COX, JR., Assistant United States
Attorney, Portland, OR.

The following facts are undisputed unless otherwise
noted and are taken from Plaintiff's Amended
Complaint, the Administrative Record, and the parties'
filings related their Motions.
In 1998 Plaintiff Damon J. Claiborne enlisted in the
United States Army and was assigned the rank of
Specialist (SPC). AR00013.
On November 12, 2004, when Plaintiff was an SPC, he
was charged in Kitsap County, Washington, with one
count of Child Molestation in [*2] the Second Degree.

John Maher

3a

Page 2 of 11
2018 U.S. Dist. LEXIS 195014, *2
Plaintiff submitted an Alford plea and was sentenced to
a term of 15 months imprisonment. Plaintiff's status with
the Army was changed from "present for duty" to
"civilian confinement" from October 28, 2004, to January
5, 2006.
On January 6, 2006, Plaintiff's status was changed to
"present for duty," and Plaintiff reported to his unit. As a
result of the state-court conviction, the Army initiated
involuntary separation proceedings against Plaintiff on
February 9, 2006, under the provisions of Army
Regulation 635-200, chapter 14-5, Active Duty Enlisted
Administrative Separations, ¶ 14-5, Conviction by Civil
Court.
On May 10, 2006, the Acting Commander, I Corps and
Fort Lewis, reviewed the recommendation to discharge
Plaintiff pursuant to Army Regulation 635-200. The
Acting Commander suspended execution of the
discharge for 12 months.
At some point the suspended discharge was cancelled
after Plaintiff's successful completion of the probation
period pursuant to Army Regulation 635-200 and
Plaintiff was retained by the Army.
On July 1, 2007, Plaintiff was promoted to Sergeant
(SGT). AR000068.
On June 25, 2008, Plaintiff reenlisted in the Army for a
period of four years. On [*3] October 1, 2010, Plaintiff
reenlisted again for a period of five years.
On March 25, 2011, Plaintiff was determined to be
eligible under the Military Retirement Reform Act to
elect either a one-time, career-status bonus and to
remain under the REDUX retired pay system or to retire
under the "High-3" retirement system. Plaintiff elected
the one-time, career-status bonus, which required
Plaintiff to agree to stay in the Army until he had a
minimum of 20 years active service.
On December 1, 2012, Plaintiff was promoted to Staff
Sergeant (SSG). AR000068.
On November 7, 2013, the Secretary of the Army issued
Army Directive 2013-21, which provides in pertinent
part:
Commanders will initiate the administrative
separation of any Soldier convicted of a sex offense
. . . whose conviction did not result in a punitive
discharge or dismissal. This policy applies to all
personnel currently in the Army, regardless of when
the conviction for a sex offense occurred and

regardless of component of membership and
current status in that component.
Army Directive 2013-21(3).
At some point Plaintiff requested voluntary retirement
from the Army "upon completion of 20 years of active
Federal service." AR00013.1
On [*4] January 6, 2014, Plaintiff's request for
retirement
was
approved.
Army
Installation
Management Command Orders released Plaintiff from
active duty effective January 31, 2015, and placed him
on the Retired List effective February 1, 2015.
AR000014.
In February 2014 the Army issued ALARACT 035/2014
in which it reiterated the terms of Army Directive 201321 and implemented Directive 2013-21 at the Army unit
level. AR000754-58.
On February 10, 2014, however, Plaintiff was notified by
the Chief, Criminal Law Division, Headquarters, I Corps,
that in Administrative Directive 2013-21 the Secretary of
the Army "directed initiation of separation proceedings
of all Soldiers convicted of a sex offense if the
conviction did not result in a punitive discharge or
dismissal, regardless of when the conviction occurred."
AR000014. The Chief also advised Plaintiff that "if an
enlisted Soldier who has been convicted of a sex
offense has already been subject to administrative
separation action, the separation authority will initiate
separation action under Secretarial plenary authority as
described in Army Regulation 635-200, paragraph 5-3."
AR000014.
On February 20, 2014, Plaintiff was advised by his
Company [*5] Commander that she was initiating a
"flag" for Plaintiff's involuntary separation effective on
that date. TROAR003-04.2 Also on February 20, 2014,
Plaintiff signed a Developmental Counseling Form and
initialed that he agreed with the information. AR000399.
On July 16, 2014, Plaintiff was notified via memorandum
by his Company Commander, Chris Kim, that Kim was
initiating Plaintiff's involuntary separation under Army
Regulation 635-200, Chapter 5-3, pursuant to the
Secretary of the Army's plenary authority. AR000342-

1 Citations

to the transcript of record filed by the Secretary of
the Army on February 20, 2018, are referred to as "AR."
2 Citations

to the transcript of record filed by the Secretary of
the Army on July 6, 2015, in association with Plaintiff's Motion
for Temporary Restraining Order are referred to as "TROAR."

John Maher

4a

Page 3 of 11
2018 U.S. Dist. LEXIS 195014, *5
43. The notification
(1) informed Plaintiff that the reason for the
separation was his January 3, 2005, conviction for
child molestation in the second degree in Kitsap
County,
(2) indicated Kim's recommendation would be
submitted to the Secretary of the Army to make the
final decision on the matter, and
(3) informed Plaintiff that he had the right to consult
with counsel and the right to submit statements on
his own behalf.
On July 18, 2014, Plaintiff met with a military attorney
and elected to submit a statement to be forwarded to
the decisional authority. AR000340-41.
On July 20, 2014, Plaintiff submitted a Request for
Retirement in Lieu of Chapter 5-3 Proceedings and a
Letter [*6] of Intent to his Command. AR000400-401.
In an undated memorandum Kim considered the
separation action and recommended Plaintiff's retention.
AR000103-106.
In an undated memorandum Plaintiff's Battalion
Commander considered the separation action and
recommended Plaintiff's retention as well as
characterizing Plaintiff's service as Honorable and
"General under honorable conditions." TROAR017-18.
In an undated memorandum Plaintiff's Brigade
Commander considered the separation action and
recommended Plaintiff to "be . . . separated from the
Army prior to the expiration of his current term of
service" and his service to "be characterized as . . .
General under honorable conditions." TROAR019.
On August 27, 2014, the Commanding General, I Corps,
considered the separation action and recommended
Plaintiff to "be . . . separated from the Army prior to the
expiration of his current term of service" and his service
to "be characterized as . . . General under honorable
conditions." TROAR020.
On November 25, 2014, however, the Chief, Enlisted
Retirements and Separations, U.S. Army Human
Resources Command, suspended Plaintiff's approved
retirement and "revoked or rescinded as appropriate"
Plaintiff's [*7] retirement orders noting "[t]he approved
retirement will remain in effect." AR000586.
On June 16, 2015, Assistant Secretary of the Army
(Manpower and Reserve Affairs) Debra S. Wada found
separation of Plaintiff "is clearly in the best interest of

the Army in accordance with Army Regulation 635-200,
paragraph 5-3." AR000070. Wada directed Plaintiff to
"be separated with a General (Under Honorable
Conditions) characterization of service." AR000070.
On June 24, 2015, the Directorate of Human
Resources, Military Personnel Division, JBLM,
published orders directing Plaintiff's discharge on July 1,
2015. AR000075.
On June 28, 2015, Plaintiff filed a Complaint in this
Court seeking an order to enjoin the Army from
continuing his separation, to set aside the Army's
decision, to compel the Army to transfer him to the
retired list with an effective date to be determined, and
also seeking a number of declarations about the
Secretary of the Army's authority under various Army
regulations.
On June 29, 2015, Plaintiff filed a Temporary
Restraining Order seeking an order preventing
Defendant from separating Plaintiff from the Army.
On June 30, 2015, the Court heard oral argument on
Plaintiff's Motion [*8] for Temporary Restraining Order;
granted the Temporary Restraining Order through July
8, 2015; and directed the parties to file a Joint Status
Report that addressed venue, contained agreed
background facts, and included any further argument
about Plaintiff's likelihood of success on the merits.
On June 30, 2015, the Directorate of Human
Resources, Military Personnel Division, JBLM, amended
Plaintiff's discharge order to reflect a discharge date of
July 9, 2015.
On July 8, 2015, the Court heard further oral argument
on Plaintiff's Motion for Temporary Restraining Order,
concluded Plaintiff did not satisfy the criteria for
injunctive relief, found Plaintiff failed to establish that he
had exhausted his administrative remedies, and allowed
the Temporary Restraining Order to lapse.
On August 7, 2015, the parties filed a Joint Status
Report in which they requested the Court to stay this
matter while Plaintiff pursued his administrative
remedies.
On August 10, 2015, the Court stayed this matter
pending Plaintiff's pursuit of his administrative remedies.
On October 20, 2015, Plaintiff appealed Assistant
Secretary of the Army Wada's June 16, 2015, decision
to the Army Discharge Review Board (ADRB). [*9] In
his appeal Plaintiff "request[ed] an upgrade of

John Maher

5a

Page 4 of 11
2018 U.S. Dist. LEXIS 195014, *9
[Plaintiff's] general, under honorable conditions
discharge to honorable and change the narrative reason
[for his separation from Secretarial authority] to
retirement." AR000020, AR000301.
On April 27, 2016, the ADRB "voted to grant . . . relief in
the form of an upgrade of characterization of [Plaintiff's]
service to honorable. However, the [ADRB] determined
that the reason for discharge was proper and equitable
and voted not to change it." AR000301. Specifically, the
ADBR noted "the information available for review . . .
revealed no medical or behavioral health conditions
which could be seen as mitigating for the misconduct,
child molestation." AR000301.
On February 28, 2017, Plaintiff filed an application for
administrative review of the decision of the ADRB with
the Army Board for Correction of Military Records
(ABCMR).
On September 28, 2017, the ABCMR concurred with the
ADRB's
recommendation
to
"upgrade
[the]
characterization of [Plaintiff's] service to honorable," but
denied Plaintiff's request to change the reason for his
separation from Secretarial authority to retirement.
Although the AMBCR acknowledged Plaintiff's military
skills [*10] and years of service and noted it was
"sympathetic to [Plaintiff's] situation "since he was likely
motivated by the prospect of a military retirement when
he decided during the latter years of his military career
to remain in the Army," the AMBCR also noted
much of [Plaintiff']s predicament is due to his own
misbehavior. It is indisputable that [Plaintiff] was
convicted of a serious sex offense. Such
misconduct by service members in turn forces
government officials, such as the Secretary of the
Army, to make difficult decisions. . . . Had he not
engaged in serious misconduct (misconduct which
involved a child victim) [Plaintiff] would not be in the
situation he is.
AR000034.
On December 6, 2017, the parties filed a Joint Motion to
Lift Stay.
On December 7, 2017, the Court granted the parties'
Motion and issued an Order lifting the stay.
On January 29, 2018, Plaintiff filed an Amended
Complaint seeking review of the Army's decision
pursuant to the Administrative Procedures Act, 5 U.S.C.
§ 702, and a Writ of Mandamus pursuant to 28 U.S.C. §
1361. Plaintiff requests the Court to compel the Army to
transfer him to the retired list with an effective date to be

determined and to issue any other legal or equitable
relief that [*11] the Court deems proper.
On August 6, 2018, Plaintiff filed a Motion for Judgment
on the Administrative Record. On September 10, 2018,
Defendant filed a Cross-Motion for Summary Judgment.
The Court took the parties' Motions under advisement
on October 5, 2018.

STANDARDS
Summary judgment is appropriate when "there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law." Washington
Mut. Ins. v. United States, 636 F.3d 1207, 1216 (9th Cir.
2011). See also Fed. R. Civ. P. 56(a). The moving party
must show the absence of a genuine dispute as to a
material fact. Emeldi v. Univ. of Or., 673 F.3d 1218,
1223 (9th Cir. 2012). In response to a properly
supported motion for summary judgment, the
nonmoving party must go beyond the pleadings and
point to "specific facts demonstrating the existence of
genuine issues for trial." In re Oracle Corp. Sec. Litig.,
627 F.3d 376, 387 (9th Cir. 2010) "This burden is not a
light one. . . . The non-moving party must do more than
show there is some 'metaphysical doubt' as to the
material facts at issue." Id. (citation omitted).
A dispute as to a material fact is genuine "if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party." Villiarimo v. Aloha
Island Air, Inc., 281 F.3d 1054, 1061 (9th Cir.
2002)(quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)).
The court must draw all reasonable inferences in favor
of the nonmoving party. Sluimer v. Verity, Inc., 606 F.3d
584, 587 (9th Cir. 2010). "Summary judgment cannot be
granted where contrary inferences may be drawn [*12]
from the evidence as to material issues." Easter v. Am.
W. Fin., 381 F.3d 948, 957 (9th Cir. 2004)(citing
Sherman Oaks Med. Arts Ctr., Ltd. v. Carpenters Local
Union No. 1936, 680 F.2d 594, 598 (9th Cir. 1982)).
"A non-movant's bald assertions or a mere scintilla of
evidence in his favor are both insufficient to withstand
summary judgment." F.T.C. v. Stefanchik, 559 F.3d 924,
929 (9th Cir. 2009)(citation omitted). When the
nonmoving party's claims are factually implausible, that
party must "come forward with more persuasive
evidence than otherwise would be necessary." LVRC
Holdings LLC v. Brekka, 581 F.3d 1127, 1137 (9th Cir.
2009) (citing Blue Ridge Ins. Co. v. Stanewich, 142 F.3d

John Maher

6a

Page 5 of 11
2018 U.S. Dist. LEXIS 195014, *12
1145, 1149 (9th Cir. 1998)).
The substantive law governing a claim or a defense
determines whether a fact is material. Miller v. Glenn
Miller Prods., Inc., 454 F.3d 975, 987 (9th Cir. 2006). If
the resolution of a factual dispute would not affect the
outcome of the claim, the court may grant summary
judgment. Id.

DISCUSSION

Protection Agency, 836 F.3d 1218, 1229 (9th Cir. 2016).
The court is "not empowered to substitute its judgment
for that of the agency." Citizens to Preserve Overton
Park, Inc. v. Volpe, 401 U.S. 402, 416, 91 S. Ct. 814, 28
L. Ed. 2d 136 (1971), abrogated on other grounds by
Califano v. Sanders, 430 U.S. 99, 97 S. Ct. 980, 51 L.
Ed. 2d 192 (1977). See also Ctr. for Bio. Diversity v.
Bureau of Land Mgmt., 833 F.3d 1136, 1150 (9th Cir.
2016)("[r]eview under the arbitrary and capricious
standard is narrow — a court will not substitute its
judgment for that of the agency."). The court's

As noted, Plaintiff brings claims under the APA and for
mandamus relief. Specifically, Plaintiff requests the
Court to compel the Army to transfer him to the "retired
list with an effective date to be determined based on his
credible service" and "award any other legal or equitable
relief which the Court deems proper."

I. Standards of Review
Under 10 U.S.C. § 1169(1) "[n]o regular enlisted
member of an armed force may be discharged before
his term of service expires, except as prescribed by the
Secretary concerned."
The ABCMR acts for the Secretary of the Army and
derives its authority to correct servicemen's military
records [*13] from 10 U.S.C. § 1552, which provides in
pertinent part: "The Secretary of a military department
may correct any military record of the Secretary's
department when the Secretary considers it necessary
to correct an error or remove an injustice." 10 U.S.C. §
1552(a)(1). See also 32 C.F.R. § 581.3 (setting out
purpose, authority, and procedures for military records
review by the ABCMR). As noted, Plaintiff challenges
the Army's application of § 1552 pursuant to the APA
and mandamus.

A. Review under the APA
Under the APA a court must set aside an agency action
that is "arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law." 5 U.S.C. §
706(2)(A). "Such review is deferential and narrow,
requiring a high threshold for setting aside agency
action." Alliance for the Wild Rockies v. Savage, 897
F.3d 1025, 1033 (9th Cir. 2018) (quotation omitted). The
review is "highly deferential, presuming the agency
action to be valid and affirming the agency action if a
reasonable basis exists for its decision." Bahr v. Env't

proper role is simply to ensure that the
[agency] [*14] made no clear error of judgment that
would render its action arbitrary and capricious, and
[the court] require[s] only a rational connection
between facts found and conclusions made by the
defendant agencies.
Friends of Santa Clara River v. United States Army
Corps of Engineers, 887 F.3d 906, 920 (9th Cir.
2018)(quotations omitted). "Even when an agency
explains its decision with less than ideal clarity, a
reviewing court will not upset the decision on that
account if the agency's path may reasonably be
discerned." Bahr, 836 F.3d at 1229 (quotation omitted).
"The burden is on Plaintiff[] to show any decision or
action was arbitrary and capricious.'" Planned
Parenthood of Greater WA and N. Idaho v. U.S. Dep't of
Health and Human Svcs., 328 F. Supp. 3d 1133, 2018
WL 1934070, at *10 (E.D. Wash. 2018)(quoting Kleppe
v. Sierra Club, 427 U.S. 390, 412, 96 S. Ct. 2718, 49 L.
Ed. 2d 576 (1976)).

B. Review of the ABCMR under the APA
The parties agree the Ninth Circuit has not interpreted
the scope of judicial review for a decision of the ABCMR
pursuant to § 1552(a)(2). The D.C. Circuit and Federal
Circuit, however, have addressed the standard of
review. The Court, therefore, looks to the case law of
those courts for guidance.
"Although the federal courts have jurisdiction to review
decisions of [military] Correction Board[s], [they] do so
under an unusually deferential application of the
arbitrary or capricious standard of the APA." Mueller v.
Winter, 485 F.3d 1191, 1198, 376 U.S. App. D.C. 161
(D.C. Cir. 2007)(quotations omitted). As [*15] one court
explained:

John Maher

7a

Page 6 of 11
2018 U.S. Dist. LEXIS 195014, *15
The [ABCMR] (under its delegated authority from
the Secretary of the [Army]) has broad discretion
when considering an application for correction.
Military corrections boards "may correct any military
record . . . necessary to correct an error or remove
an injustice." 10 U.S.C. § 1552(a)(1)(emphasis
added). As a result, a court reviewing a military
corrections board's decision applies an "unusually
deferential application of the 'arbitrary or capricious'
standard." Kreis v. Sec'y of Air Force, 866 F.2d
1508, 1514, 275 U.S. App. D.C. 390 (D.C. Cir.
1989).
Magneson v. Mabus, 174 F. Supp. 3d 114, 119 (D.D.C.
2016). See also Ey v. McHugh, 21 F. Supp. 3d 49, 55
(D.D.C. 2014)("Deference is doubly warranted . . . when
Courts review administrative decisions made by the
armed forces. That extra deference has two sources.
First, courts are particularly unfit to review the
substance of military personnel decisions. Second, the
ABCMR's enabling statute grants special discretion to
the Secretary of the Army, who acts through that
body."). Citation omitted.
Although "the broad grant of discretion implicated [in 10
U.S.C. § 1552(a)] does not entirely foreclose review of
the Secretary's action, the way in which the statute
frames the issue for review does substantially restrict
the authority of the reviewing court to upset the
Secretary's determination." Kreis, 866 F.2d at 1514. "It
is simply more difficult to say that the Secretary
has [*16] acted arbitrarily if he is authorized to act
'when he considers it necessary to correct an error or
remove an injustice.'" Id. (citing 10 U.S.C. §
1552(a)(emphasis in original)). "Thus, when reviewing a
military corrections board decision, a court's role is to
determine only whether 'the decision making process
was deficient, not whether [the] decision was correct.'"
Magneson, 174 F. Supp. 3d at 120 (quoting Dickson v.
Sec'y of Def., 68 F.3d 1396, 1405, 314 U.S. App. D.C.
345 (D.C. Cir. 1995)).

before it may issue. First, the party seeking
issuance of the writ must have no other adequate
means to attain the relief [s]he desires — a
condition designed to ensure that the writ will not be
used as a substitute for the regular appeals
process. Second, the petitioner must satisfy the
burden of showing that [her] right to issuance of the
writ is clear and indisputable. Third, even if the first
two prerequisites have been met, the issuing court,
in the exercise of its discretion, must be satisfied
that the writ is appropriate under the circumstances.
Id. at 2587 (internal quotations and citations [*17]
omitted).
"For mandamus relief, three elements must be satisfied:
(1) the plaintiff's claim is clear and certain; (2) the
[defendant official's] duty is ministerial and so plainly
prescribed as to be free from doubt; and (3) no other
adequate remedy is available." Johnson v. Reilly, 349
F.3d 1149, 1154 (9th Cir. 2003). "Whether the elements
of the mandamus test are satisfied is a question of law
reviewed de novo. The trial court retains discretion in
ordering mandamus relief, however, even if all elements
are satisfied." Indep. Mining Co. v. Babbitt, 105 F.3d
502, 505 (9th Cir. 1997).
In Cargill v. Marsh the plaintiff serviceman sought a writ
of mandamus to compel the Army to reassign him from
the Judge Advocate General's Corps to the Army's
Corps of Engineers as well as an amendment to his
military records to reflect an assignment to the Corps of
Engineers rather than the Judge Advocate General's
Corps. Cargill v. Marsh, 902 F.2d 1006, 1007, 284 U.S.
App. D.C. 180 (D.C. Cir. 1990). The district court
dismissed the plaintiff's claims on the ground that they
were not justiciable pursuant to Mindes v. Seaman, 453
F.2d 197 (5th Cir. 1971). The D.C. Circuit court noted it
had recently rejected the analysis of Mindes in Kreis.
The D.C. Circuit, however, concluded "[u]nder the
authority of Kreis . . . [the plaintiff's] mandamus claim is
still nonjusticiable." Cargill, 902 F.2d at 1007. The court
reasoned:

C. Mandamus
The writ of mandamus is a "drastic and extraordinary
remedy reserved for really extraordinary causes."
Cheney v. United States Dist. Ct. for the Dist. of
Columbia, 542 U.S. 367, 124 S. Ct. 2576, 2586, 159 L.
Ed. 2d 459 (2004)(internal quotation omitted).
[T]he Writ is one of the most potent weapons in the
judicial arsenal, three conditions must be satisfied

The same "fundamental and highly salutary
principle" that caused the court to [*18] stay its
hand in Kreis applies in this case. "The Constitution
vests '[t]he complex, subtle, and professional
decisions as to the composition, training, equipping,
and control of a military force' exclusively in the
legislative and executive branches," not in the
judicial. Id. at 1511 (quoting Gilligan v. Morgan, 413
U.S. 1, 10, 93 S. Ct. 2440, 37 L. Ed. 2d 407

John Maher

8a

Page 7 of 11
2018 U.S. Dist. LEXIS 195014, *18
(1973)). To grant the transfer sought here, like the
promotion in Kreis, "would require [the court] to
second-guess the Secretary's decision about how
best to allocate military personnel in order to serve
the security needs of the Nation." Id.

Secretarial plenary separation authority under . . .
paragraph 5-3 of reference 1d."
Paragraph 1(d) references Army Regulation 635-200.
Paragraph 5-3 of Army Regulation 635-200 provides in
pertinent part:

Id.

Secretarial plenary authority
a. Separation under this paragraph is the
prerogative of the Secretary of the Army.
Secretarial plenary separation authority is exercised
sparingly and seldom delegated. [*20] Ordinarily, it
is used when no other provision of this regulation
applies, and early separation is clearly in the best
interest of the Army. Separations under this
paragraph are effective only if approved in writing
by the Secretary of the Army or the Secretary's
approved designee as announced in updated
memorandums.
b. Secretarial separation authority is normally
exercised on a case-by-case basis but may be
used for a specific class or category of soldiers.
When used in the latter circumstance, it is
announced by special HQDA directive that may, if
appropriate, delegate blanket separation authority
to field commanders for the class category of
soldiers concerned.

II. Plaintiff's APA Claim
As noted, Plaintiff asserts the Army's decision to
separate him involuntarily from service was arbitrary
and capricious in violation of the APA. In his Response
to Defendant's Motion for Summary Judgment Plaintiff
notes he is not challenging the "substance" of Army
Directive 2013-21 and ALARACT 035-2014. Plaintiff
states he only challenges the "retroactive application of
them to his case."3

A. Army Directive 2013-21 Procedure
Army Directive 2013-21(3)(a)(3) relates to enlisted
soldiers convicted of sex offenses and provides:
3. Commanders will initiate the administrative
separation of any Soldier convicted of a sex offense
. . . whose conviction did [*19] not result in a
punitive discharge or dismissal. This policy applies
to all personnel currently in the Army, regardless of
when the conviction for a sex offense occurred and
regardless of component of membership and
current status in that component.
a. For enlisted personnel:
***
(3) If an enlisted Soldier who has been
convicted of a sex offense already has
been subject to an administrative
separation action . . . for that conviction
and has been retained as a result of that
proceeding, the separation authority will
initiate a separation action under the
Secretarial plenary authority, as detailed in
paragraph 3a(2) of this directive.
AR000750-51. Directive 2013-21(3)(a)(2), in turn,
provides: "If the separation authority approves retention,
he or she will initiate an action for the exercise of

3 Plaintiff

appears to have abandoned his claim that Army
Directive 2013-21 and ALARACT should be invalidated under
the APA on the ground that they were the enactment of illegal
policies with retroactive application." Pl.'s Mot. at 18-19.

In summary, the Army directed commanders to initiate
administrative separation procedures for any soldier,
who, as in Plaintiff's case, was convicted of a sex
offense but whose conviction did not result in a punitive
discharge or dismissal from the Army. For enlisted
soldiers "the separation authority" is directed to initiate a
separation action pursuant to an "exercise of [the]
Secretarial plenary separation authority" set out in ¶ 5-3
of Army Regulation 635-200. In turn, the secretarial
plenary authority is "the prerogative [*21] of the
Secretary of the Army" that may be exercised for a
specific category or class of soldiers and used when "no
other provision of . . . [R]egulation [635-200] applies and
early separation is clearly in the best interest of the
Army."

B. Retroactivity
As noted, Plaintiff challenges the alleged "retroactive
application" of Army Regulation 2013-21 to his case.
Specifically, Plaintiff asserts the Army lacked the
authority to use Directive 2013-21 to reach back and to
separate Plaintiff involuntarily based on his 2005
conviction.

John Maher

9a

Page 8 of 11
2018 U.S. Dist. LEXIS 195014, *21
Defendant, however, notes neither Directive 2013-21
nor ALARACT mandated Plaintiff's discharge. The
Directive and ALARACT require the Army to commence
future proceedings for case-by-case discharge
adjudications of soldiers convicted of sex offenses. The
Directive requires the Assistant Secretary to "consider
and [to] act upon" Plaintiff's case and to require
separation if the Secretary concludes "early separation
is clearly in the best interest of the Army." In addition,
Army Regulation 635-200 paragraph 2-6(e) provides the
procedure for "[w]hen a board of officers has
recommended retention [of a solider] and the separation
authority believes that discharge is [*22] warranted and
in the best interest of the Army." AR000640. Paragraph
2-6(e)(1) explains "[s]eparation under the provisions of
paragraph 5-3 [of Army Regulation 635-200] is based
upon different criteria from that considered by the board
of officers and does not constitute overturning the
board." Thus, the decision by the ABCMR to separate
Plaintiff from service was not retroactive and did not
apply the same criteria as that applied by the board of
officers in 2006.

C. Failure to Follow Army Regulations
Plaintiff asserts the Army's decision was arbitrary and
capricious because the Army failed to follow its own
regulations in reaching its decision to separate Plaintiff.
When an individual challenges an "agency's action as
inconsistent with the agency's own policies, [the court]
examines whether the agency has actually departed
from its policy and, if so, whether the agency has
offered a reasoned explanation for such departure."
Bahr, 836 F.3d at 1229 (citing Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2125-26, 195 L. Ed. 2d 382
(2016)). Generally "[a]gencies are free to change their
existing policies as long as they provide a reasoned
explanation for the change." Encino, 136 S. Ct. at 2125.
When an agency is "interpreting a binding regulation,
the agency's interpretation is 'controlling' unless 'plainly
erroneous [*23] or inconsistent with the regulation.'"
Bahr, 836 F.3d at 1229 (quoting Auer v. Robbins, 519
U.S. 452, 461, 117 S. Ct. 905, 137 L. Ed. 2d 79 (1997)).
Plaintiff notes Army Regulation 635-200, paragraph 117(b) provides:
Separation per this regulation normally should not
be based on conduct that has already been
considered at an administrative . . . proceeding and
disposed of in a manner indicating that separation
was not warranted. Accordingly, . . . no Soldier will

be considered for administrative separation
because of conduct that—
***
(3) Has been the subject of an administrative
separation proceeding resulting in a final
determination by a separation authority that the
Soldier should be retained, except [under
circumstances not relevant here].
According to Plaintiff, therefore, the Army violated its
own regulation when it separated Plaintiff pursuant to
Army Regulation 635-200 because his 2005 conviction
had already been considered at an administrative
proceeding that resulted in a final determination that he
should be retained.
Defendant, however, points out that Paragraph 2-6(e) of
Army Regulation 635-200 specifically notes when "the
separation authority believes that discharge is
warranted and in the best interest of the Army," it may
do so pursuant to paragraph 5-3 notwithstanding [*24]
the prior recommendation by a board of officers.
AR000639. Moreover, paragraph 2-6(e)(1) makes clear:
"Separation under the provisions of paragraph 5-3 is
based upon different criteria from that considered by the
board of officers and does not constitute overturning the
board." Id. In addition, paragraph 2-6(e) explains even
though it is the Army's policy "not to direct separation
per paragraph 5-3 when a duly constituted board has
recommended retention," it may do so when "sufficient
justification is provided to warrant separation by the
Secretary of the Army, based on all the circumstances,
as being in the best interest of the Army." Id.
Courts have held "separations under [paragraph] 5 [of
Army Regulation 635-200] are separate and alternative
from separations authorized under other provisions of
[that Regulation]." West v. United States, 103 Fed. Cl.
55, 62 (2012)(citation omitted). Thus, the court held in
West that "provisions of Army Reg. 635-200 Chapter 14
do not limit the authority of the Secretary to exercise his
discretion to discharge a soldier under Chapter 5." Id.
The court noted "[i]t would be contrary to the language
and intent of Chapter 5 to unduly limit the Secretary's
ability to effect a discharge for the convenience [*25] of
the government." Id. (citation omitted).
On this record the Court concludes Defendant did not
"actually depart" from its policies and procedures in
reaching its decision to separate Plaintiff pursuant to
paragraph 5-3.

D. Failure to Support Decision with Substantial

John Maher

10a

Page 9 of 11
2018 U.S. Dist. LEXIS 195014, *25
Evidence
Plaintiff alleges the ABCMR's decision to separate him
was arbitrary and capricious because the Army did not
do so based on substantial evidence. Specifically,
Plaintiff asserts the Army failed to consider and to weigh
properly Plaintiff's achievements and good conduct after
his 2005 conviction in reaching its decision to separate
Plaintiff.
Defendant asserts the substantial-evidence standard
does not apply in this context and that the Army actually
considered Plaintiff's achievements and good conduct in
reaching its decision.

1. Applicable Standard
As noted, Defendant contends the substantial-evidence
standard of the APA does not apply in this context.
Defendant points out that Plaintiff acknowledges in other
portions of his Motion for Judgment that the applicable
standard of review in this matter is "arbitrary and
capricious" pursuant to 5 U.S.C. § 706(2)(A).
The APA provides in § 706(2)(E) that a reviewing court
shall hold unlawful and set aside [*26]
action, findings, and conclusions found to
unsupported by substantial evidence in
subject to sections 556 and 557 of this
otherwise reviewed on the record of an
hearing provided by statute.

agency
be . . .
a case
title or
agency

5 U.S.C. § 556 applies by its terms to "hearings required
by section 553 or 554 of [Chapter 5]." In turn, § 553
applies to agency rule-making procedures "except to the
extent that there is involved a military . . . function of the
United States." 5 U.S.C. § 553(a)(1). Similarly, § 554
applies "in every case of adjudication required by statute
to be determined on the record after opportunity for an
agency hearing, except to the extent that there is
involved . . . the conduct of military . . . functions." 5
U.S.C. § 554(a)(4). Finally, 5 U.S.C. § 557 applies
"when a hearing is required to be conducted in
accordance with section 556." Thus, the substantialevidence standard set out in § 706(2)(E) does not apply
to the Court's review of military decisions under the
terms of that provision.
As noted, numerous courts that have addressed this
issue have concluded a highly deferential arbitrary-andcapricious standard applies to the court's scope of
review of military matters. Accordingly, this Court

concludes the arbitrary-and-capricious standard applies
to the Court's evaluation of the Army's [*27]
consideration of Plaintiff's achievement's and good
conduct in this matter.

2. Analysis
Plaintiff asserts the Army failed to take proper
consideration of and/or to weigh properly Plaintiff's good
conduct and military achievements in reaching its
decision to separate him from service. Plaintiff relies on
Crane v. Secretary of the Army to support his assertion.
In Crane the Army began separation proceedings
against the plaintiff for his "[f]ailure to conform to
prescribed standards of dress, personal appearance,
and military deportment." 92 F. Supp. 2d 155, 158
(W.D.N.Y. 2000). The issue of plaintiff's separation went
before a Board of Inquiry (BOI). After a hearing the BOI
recommended the plaintiff to "be separated from the
Army in accordance with AR 635-100 for failing to meet
the standards of dress, personal appearance, and
military deportment." Id. at 160. Specifically, the BOI
found the plaintiff had "not complied with the prescribed
standards of dress, personal appearance, and military
deportment, in that he did not possess and maintain
military bearing and appearance as evidenced by
testimonial and documentary" evidence. Id. The BOI's
decision "was forwarded through the chain of command
to the United States Total Army Personnel [*28]
Command" (PERSCOM). PERSCOM recommended the
plaintiff to "be separated for substandard performance,
specifically, for his failure to conform to prescribed
standards of dress, personal appearance, and military
deportment." Id. Ultimately the Secretary of the Army
approved the plaintiff's involuntary discharge, "but not
on the ground that the BOI and PERSCOM had
recommended. Rather than granting the separation on
the ground that [the plaintiff] failed to comply with AR
635-100, pertaining to military dress and deportment,
the Secretary approved separation on the ground that
[the plaintiff] failed to comply with Army weight
standards under 600-9." Id. The plaintiff brought an
action under the APA in federal district court against the
Secretary of the Army in which the plaintiff alleged his
discharge was arbitrary and capricious. The court
concluded the Army's decision to discharge the plaintiff
was arbitrary and capricious and noted the defendant
failed to follow its own procedures and regulations in
reaching its decision. The court also noted the BOI's
decision to discharge the plaintiff "was based on only
three pieces of evidence, each of which ha[d] been

John Maher

11a

Page 10 of 11
2018 U.S. Dist. LEXIS 195014, *28
called into question by other [*29] evidence in the
administrative record." Id. at 165. The court found the
BOI's decision was actually "supported by only two out
of more than one hundred documents in the
Administrative Record and the testimony of one out of
more than ten witnesses." Id.
This matter is distinguishable from Crane. Here it is
undisputed that Plaintiff was convicted of molesting a
child between the ages of 12 and 14. In addition, every
level of review that recommended Plaintiff's separation
did so for the same reason and based on the same
regulation. Moreover, unlike in Crane, Plaintiff's Brigade
Commander and Commanding General recommended
separation. Finally, the Army did not fail to follow its own
polices or procedures in reaching its decision to
separate Plaintiff.
In addition, contrary to Plaintiff's assertion that the Army
failed to consider properly or to weigh his service and
contributions, both the ADRC and the ABCMR explicitly
recognized Plaintiff's military service and contributions.
The record reflects Plaintiff's counsel submitted to the
ADRC and ABCMR numerous certificates and awards
garnered by Plaintiff after 2006 and those bodies
considered such evidence when reaching their
decisions. The ADRB weighed [*30] Plaintiff's record
against the seriousness of his crime and "grant[ed] full
relief in the form of an upgrade of characterization of
service to honorable" based on Plaintiff's record.
AR000301. The ADRB, however, also concluded "the
reason for the discharge was proper and equitable" and,
therefore declined to change it to retirement from
separation. AR000301. ABCMR also weighed Plaintiff's
record against the seriousness of his crime and adopted
the ADRB's recommendation. As noted, the ABCMR
explained it was "sympathetic to [Plaintiff's] situation
since he was likely motivated by the prospect of a
military retirement when he decided during the latter
years of his military career to remain in the Army," but
the ABCMR also found
much of [Plaintiff']s predicament is due to his own
misbehavior. It is indisputable that [Plaintiff] was
convicted of a serious sex offense. Such
misconduct by service members in turn forces
government officials, such as the Secretary of the
Army, to make difficult decisions. . . . Had he not
engaged in serious misconduct (misconduct which
involved a child victim) [Plaintiff] would not be in the
situation he is.
AR000034. The ABCMR also considered the fact that
individuals [*31] such as Plaintiff who had been

convicted of sex offenses are no longer eligible for
assignment or deployment outside of the continental
United States under Army Regulation 635-200.
Under the APA, however, this Court is "not empowered
to substitute its judgment for that of the agency." Volpe,
401 U.S. at 416. The Ninth Circuit has made clear that
"[r]eview under the arbitrary and capricious standard is
narrow — a court will not substitute its judgment for that
of the agency." See also Ctr. for Bio. Diversity v. Bureau
of Land Mgmt., 833 F.3d 1136, 1150 (9th Cir. 2016).
In light of the Court's narrow jurisdiction to review the
Army's decision herein, the Court concludes on this
record that the Army's decision to separate Plaintiff was
properly supported by evidence in the record and within
the parameters of the Army's discretion.
In summary, the Court concludes Plaintiff has not
established Defendant's decision was arbitrary and
capricious in violation of the APA. Accordingly, the Court
grants Defendant's Cross-Motion for Summary
Judgment and denies Plaintiff's Motion for Judgment on
the Administrative Record as to Plaintiff's APA claim.

III. Plaintiff's Mandamus Claim
Plaintiff also brings a claim for mandamus relief
pursuant to 28 U.S.C. § 1361 based on the same facts
and arguments.
As noted, the Ninth Circuit [*32] has held "[f]or
mandamus relief, three elements must be satisfied: (1)
the plaintiff's claim is clear and certain; (2) the
[defendant official's] duty is ministerial and so plainly
prescribed as to be free from doubt; and (3) no other
adequate remedy is available." Johnson v. Reilly, 349
F.3d 1149, 1154 (9th Cir. 2003). The trial court retains
discretion in ordering mandamus relief, however, even if
all elements are satisfied." Indep. Mining Co. v. Babbitt,
105 F.3d 502, 505 (9th Cir. 1997).
Defendant contends in its Cross-Motion for Summary
Judgment that Plaintiff's mandamus claim is not viable
because he has an adequate remedy available under
the APA and the Secretary of the Army does not have
any nondiscretionary, ministerial, and plainly prescribed
duty to retain Plaintiff in active service until he reaches
retirement. Plaintiff does not respond to Defendant's
assertions.
The Ninth Circuit has recognized "mandamus relief and
relief under the APA are 'in essence' the same," and it

John Maher

12a

Page 11 of 11
2018 U.S. Dist. LEXIS 195014, *32
has "elected to analyze [a mandamus] claim under the
APA [when] there is an adequate remedy under the
APA." R.T. Vanderbilt Co. v. Babbitt, 113 F.3d 1061,
1065 (9th Cir. 1997)(citations omitted). See also Taiebat
v. Scialabba, No. 17-cv-0805-PJH, 2017 U.S. Dist.
LEXIS 27344, 2017 WL 747460, at *4 (N.D. Cal. Feb.
27, 2017)("Relief under the mandamus act and the APA
are virtually equivalent when a petitioner seeks to
compel an agency to act on a nondiscretionary
duty")(citing [*33] Independence Mining Co., 105 F.3d
at 507).
Here Plaintiff's mandamus claim duplicates his claim
under the APA. In the exercise of its discretion, the
Court, therefore, grants Defendant's Motion for
Summary Judgment on Plaintiff's mandamus claim on
the ground that Plaintiff has an adequate remedy
available under the APA.

CONCLUSION
For these reasons, the Court DENIES Plaintiff's Motion
(#58) for Judgment on the Administrative Record and
GRANTS Defendant's Cross-Motion (#61) for Summary
Judgment.
IT IS SO ORDERED.
DATED this 15th day of November, 2018.
/s/ Anna J. Brown
ANNA J. BROWN
United States Senior District Judge

End of Document

John Maher

13a

